<html>
<title> - MARKUP OF: H.R. 7903, ``TO AMEND THE SMALL BUSINESS ACT TO ESTABLISH THE COMMUNITY ADVANTAGE LOAN PROGRAM'' H.R. 8211, ``504 MODERNIZATION AND SMALL MANUFACTURER ENHANCEMENT ACT OF 2020'' H.R. 8199, ``504 CREDIT RISK MANAGEMENT IMPROVEMENT ACT OF 2020'' H.R. 8229, ``PARITY FOR HUBZONE APPEALS ACT OF 2020''</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 MARKUP OF: H.R. 7903, ``TO AMEND THE SMALL BUSINESS ACT TO ESTABLISH 
 THE COMMUNITY ADVANTAGE LOAN PROGRAM'' H.R. 8211, ``504 MODERNIZATION 
   AND SMALL MANUFACTURER ENHANCEMENT ACT OF 2020'' H.R. 8199, ``504 
 CREDIT RISK MANAGEMENT IMPROVEMENT ACT OF 2020'' H.R. 8229, ``PARITY 
                   FOR HUBZONE APPEALS ACT OF 2020''

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           SEPTEMBER 16, 2020

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-093
             Available via the GPO Website: www.govinfo.gov
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-270                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------             
            
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                           
                           
                           C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Steve Chabot................................................     3

                                APPENDIX

Additional Material for the Record:
    H.R. 7903, ``To amend the Small Business Act to establish the 
      Community Advantage Loan Program''.........................    22
    H.R. 8211, ``504 Modernization and Small Manufacturer 
      Enhancement Act of 2020''..................................    49
    H.R. 8199, ``504 Credit Risk Management Improvement Act of 
      2020''.....................................................    64
    H.R. 8229, ``Parity for HUBZone Appeals Act of 2020''........    73

 
 MARKUP OF: H.R. 7903, ``TO AMEND THE SMALL BUSINESS ACT TO ESTABLISH 
 THE COMMUNITY ADVANTAGE LOAN PROGRAM'' H.R. 8211, ``504 MODERNIZATION 
   AND SMALL MANUFACTURER ENHANCEMENT ACT OF 2020'' H.R. 8199, ``504 
 CREDIT RISK MANAGEMENT IMPROVEMENT ACT OF 2020'' H.R. 8229, ``PARITY 
                   FOR HUBZONE APPEALS ACT OF 2020''

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2020

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:32 a.m., in Room 
2175, Rayburn House Office Building. Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Finkenauer, Golden, 
Kim, Crow, Davids, Chu, Mfume, Evans, Schneider, Espaillat, 
Delgado, Houlahan, Craig, Chabot, Radewagen, Balderson, Hern, 
Hagedorn, Stauber, Burchett, Spano, Joyce, and Bishop.
    Chairwoman VELAZQUEZ. Good morning. With a quorum being 
present, I call this morning's meeting of the Committee on 
Small Business to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I would like to begin by noting some important 
requirements. During the covered period as designated by the 
speaker, the Committee will operate in accordance with H.R. 965 
and the subsequent guidance from the Rules Committee in a 
manner that respects the rights of all members to participate. 
Standing House and Committee rules and practice will continue 
to apply during hybrid proceedings as well.
    House regulations require members to be visible through a 
video connection throughout the proceeding. Due to the nature 
of a markup, it is extremely important that members follow this 
rule to ensure a quorum can be established and that members' 
votes can be recorded by the clerk.
    As a reminder, members can participate in only one 
proceeding at a time, so if you have another Committee 
proceeding or meeting, please sign off and rejoin later.
    If a member wishes to offer an amendment that has not been 
pre-filed, we will take a brief recess to allow for its 
uploading, printing, and distribution, then resume.
    We may also recess briefly to address technical issues in 
the event a member cannot be recognized to speak or offer an 
amendment.
    Finally, for those members physically present in the 
Committee room today, we will also be following the health and 
safety guidance issued by the attending physician that includes 
social distancing and especially the use of masks. I urge 
members and staff to wear a mask at all times while in the 
hearing room, and I thank you in advance for your commitment to 
a safe environment for all.
    Welcome to our first hybrid markup. Today, we will be 
considering four bipartisan bills. Three of them make important 
changes to the lending programs to make it easier for small 
businesses to access capital. Another will provide much needed 
uniformity for the HUBZone appeals process for protest 
determinations.
    I would like to begin by taking a moment to thank the 
Ranking Member and all the members of the Small Business 
Committee for their commitment to small firms during this 
particularly tough year. The coronavirus pandemic has 
threatened the very existence of millions of small businesses 
all across the country. Members of this Committee were front 
and center working tirelessly to help small businesses survive. 
I commend each and every one of you for your leadership during 
these unprecedented times.
    For the past 6 months, our Committee has worked around the 
clock to make sure the emergency relief reaches struggling 
small businesses. While we continue to press for more aid for 
those that are bearing the brunt of this pandemic, we must also 
focus on SBA's core programs and responsibilities. Today's 
markup is a continuation of our work to improve day-to-day 
operations of the agency.
    Prior to the coronavirus, the Committee held numerous 
hearings and roundtables to learn what is working and what 
needs to be improved at SBA. The bills we are considering today 
are a product of that work and a testament to our ability to 
work together day in and day out on behalf of small businesses. 
Following in the longstanding tradition of the Committee, all 
of the bills are bipartisan. I am proud of the work of our 
Committee and am especially grateful to have Ranking Member 
Chabot as a pioneer in this process.
    With that said, let's turn to the bills under 
consideration.
    H.R. 7903, to establish the Community Advantage Loan 
Program, introduced by Ms. Chu and cosponsored by Mr. Spano.
    H.R. 8211, the ``504 Modernization and Small Manufacturer 
Enhancement Act of 2020,'' introduced by Ms. Craig and 
cosponsored by Mr. Chabot.
    H.R. 8199, the ``504 Credit Risk Management Improvement 
Act,'' introduced by Mr. Bishop and cosponsored by Ms. Craig.
    H.R. 8229, the ``Parity for HUBZone Appeals Act of 2020,'' 
introduced by Ms. Radewagen and cosponsored by Ms. Houlahan.
    I strongly support each of the four bills to be marked up 
today.
    I would now like to recognize our Ranking Member, Mr. 
Chabot, for his opening remarks.
    Mr. CHABOT. Thank you, Madam Chairwoman. And thank you for 
holding today's markup.
    As always, I appreciate your willingness to work with me 
and with our staff in such a bipartisan manner. All four of 
these bills are led by members of both parties, which is now 
the norm in this Committee. We find common ground, and that 
makes our Committee so successful. Thank you for that.
    I will be brief in my opening as we will discuss each bill 
as it is called up.
    Our Committee continues to be of critical importance to 
this Congress, and most importantly to our country, especially 
in these challenging COVID times. Over the past 6 months, our 
Committee has been working nonstop on emergency measures to 
help our nation's small businesses to literally survive. As we 
move forward towards recovery, it is more important than ever 
that the SBA's core programs are operating at an optimum level.
    Each of the bills before us today improves some aspect of 
the SBA programs that small businesses across the country 
utilize to help speed up this country's recovery. I support 
each of these measures, and I want to thank all of our members, 
both Republican and Democrat alike for their hard work on these 
bills. Again, I complement you on your bipartisan operation of 
this Committee, as we had done when I was Chair, and we have 
worked together for many years now. I think it really works for 
us and this Committee, and most importantly, for the country.
    I thank you, and I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Chabot. The gentleman 
yields back.
    Before we get into the individual bills, are there any 
members present who seek recognition for the purpose of making 
an opening statement?
    Seeing none, we will move to consideration of H.R. 7903, to 
establish the Community Advantage Loan Program, introduced by 
Ms. Chu and cosponsored by Mr. Spano.
    H.R. 7903
    The bill codifies the Community Advantage Program known as 
``CA,'' which has been on a pilot status since it was initiated 
by SBA in 2011.
    I would like to now recognize the gentlewoman from 
California, Ms. Chu, the sponsor of the bill for an opening 
statement.
    Ms. CHU. Thank you, Madam Chairwoman. And thank you to my 
colleague, Mr. Spano, for his partnership on this important 
legislation.
    The Community Advantage Program was established as a pilot 
at SBA nearly 10 years ago with the goal of meeting the credit, 
management, and technical assistance needs of small businesses 
in underserved markets. The program provides mission granted 
lenders with access to SBA 7(a) loan guarantees to deliver 
financing to the disadvantaged small businesses that too often 
lack adequate access to capital that their businesses need to 
thrive. This is a proven success that reaches significantly 
more women and minority-owned businesses than the traditional 
7(a) program. That is why I introduced this legislation to 
elevate the Community Advantage Program from a pilot to one of 
SBA's core lending programs.
    I want to thank my colleagues on this Committee for their 
support and bipartisan input to make this bill stronger by 
increasing targeting of underserved businesses and ensuring 
that small businesses in disaster areas can qualify for the 
program.
    This is so important, especially as wildfires rage through 
California, including in my very own district. We are facing a 
long and challenging recovery once we defeat the coronavirus, 
and Community Advantage can play a bit part in ensuring that no 
small businesses are left behind.
    Thank you, and I yield back.
    Chairwoman VELAZQUEZ. The gentlewoman yields back.
    I would like now to recognize the gentleman from Florida, 
Mr. Spano, the cosponsor of the bill for an opening statement.
    Mr. SPANO. Thank you, Madam Chairwoman and Ranking Member 
Chabot for convening the markup today.
    I am excited to discuss several important bills and 
programs that will continue to assist small businesses from 
coast to coast.
    As a former small business owner myself, one of my main 
motivations for getting involved in politics was to fight for 
small businesses, and I am honored to do that today.
    I would also like to thank Representative Judy Chu for 
working with me on details to improve the Community Advantage 
Loan Program.
    The program, which was launched by the SBA a decade ago, 
aims to assist small businesses in historically underserved 
areas. Through a combination of financial assistance and 
technical assistance, this program has proven to be a 
gamechanger for many small businesses.
    In my home state of Florida, there are over 2.5 million 
small businesses. However, a remaining challenge for small 
businesses is access to capital. Representative Chu and I heard 
about this during our Subcommittee on Investigations, 
Oversight, and Regulations hearing back in May of 2019 when we 
discussed the Community Advantage Loan Program. This program, 
which provides low interest loans to small businesses, was 
created by the SBA and continues today as a pilot program.
    H.R. 7903, which I am a proud cosponsor of, brings 
consistency and assurances to program participants as it 
reauthorizes the program for 5 more years. H.R. 7903 codifies 
and strengthens the program to better serve businesses. 
Legislation outlines the mission-oriented program by defining 
loan terms and requirements that a certain amount of loans must 
be made to small businesses in underserved areas. Additionally, 
H.R. 7903 outlines important weekly and annual reporting 
requirements for the SBA. These reports will be instrumental as 
Congress measures the efficiency and the effectiveness of this 
program moving forward. Now more than ever it is time to 
support our small businesses. PPP and the EIDL have helped 
small businesses keep their doors open and have saved numerous 
jobs. H.R. 7903 is another way we can assist these small 
businesses in need. My hope is that this bill is a step in the 
right direction for small businesses that continue to face 
challenges finding access to capital as our nation continues to 
recover.
    I urge my colleagues to support this bill, and I yield 
back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Now I recognize the Ranking Member for his statement.
    Mr. CHABOT. Thank you, Madam Chair. I will be brief.
    As the country continues to deal with COVID-19, the SBA's 
existing toolbox of programs provide capital assistance and 
resources to America's main street small businesses. One of the 
existing government-guarantee lending programs that aims to 
assist small businesses in underserved areas across the country 
is the Community Advantage Loan Program. It was originally 
created by the SBA without congressional involvement and thus, 
currently operates as a pilot program that lacks oversight 
benchmarks and comprehensive reporting requirements.
    I would like to thank Representative Judy Chu and 
Representative Ross Spano for working hard and in a thorough 
manner to authorize the Community Advantage Loan Program for 5 
years. H.R. 7903 not only delivers certainty, but it 
comprehensively outlines the intent of the program. It defines 
the rules of the program for lenders and businesses and 
requires strong reporting requirements to ensure Congress can 
prudently measure the program.
    H.R. 7903 will ensure this program meets the needs of 
America's small businesses while informing Congress of the 
program's performance. Now more than ever, the nation's 
smallest firms need financial assistance and technical 
assistance. This program delivers both. I commend 
Representative Chu and Representative Spano for putting forth 
this legislation, and I want to especially thank Representative 
Spano for his service on this Committee and this Congress. He 
has very aggressively, very well served as the Ranking Member 
of the Investigations, Oversight, and Regulations Subcommittee. 
He has done a tremendous job doing that, and we appreciate his 
service and the things that you have accomplished here will 
benefit small businesses for quite some time. Thank you for 
doing it in a bipartisan manner as you and Representative Chu 
have done while you have worked on this Committee.
    I urge my colleagues to support this legislation, and I 
yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Are there any other members who wish to be recognized for a 
statement on H.R. 7903?
    Mr. MFUME. Madam Chair?
    Chairwoman VELAZQUEZ. Who seeks recognition?
    Mr. MFUME. Mr. Mfume.
    Chairwoman VELAZQUEZ. Mr. Mfume is recognized.
    Mr. MFUME. Thank you very much, Madam Chair.
    My congratulations to both Ms. Chu and Mr. Spano.
    I have a quick question just for clarification.
    The bill establishes, I understand, a working group that 
will advise the SBA well into the future, and I am just trying 
to get clarity on the criteria for the working group. I do not 
know if I missed that or not, but if either of the sponsors 
could expand on that, that would be great.
    Chairwoman VELAZQUEZ. Yes. I would ask the counsel to 
explain.
    Mr. PELLETIER. Can you describe exactly what you are asking 
about the scope of the working group?
    Mr. MFUME. I am trying to figure out what is the criteria 
to be a part of or to be included in this working since it is 
going to be advising the SBA going forward. It is not to second 
guess them. I am just trying to get a sense of how it is to be 
established.
    Mr. PELLETIER. Sure. There are two criteria. Two groups of 
folks that can be included. One is geographically diverse 
representation of members from among covered institutions 
participating in the program. Those are the CA lenders and 
representatives from the Office of Capital Access at SBA, the 
Office of Credit Risk Management at SBA, and the Office of 
Economic Opportunity at SBA.
    Mr. MFUME. Is there a term to each one of these persons' 
service on that group?
    Mr. PELLETIER. The legislation is silent as to the length 
of service.
    Mr. MFUME. I beg your pardon?
    Mr. PELLETIER. The legislation is silent as to the length 
of service.
    Mr. MFUME. Okay. Is there a rotation? That is the other 
point that I was trying to ask about. Are people rotated on and 
off periodically, including the fact that they have a length of 
service? Are the terms staggered? I am just trying to get a 
sense. That is all.
    Mr. PELLETIER. That is usually taken care of by the working 
group themselves. This legislation is silent as to that point 
exactly.
    Mr. MFUME. Okay. All right then. Thank you very much. Thank 
you, Madam Chair.
    Chairwoman VELAZQUEZ. Thank you, Mr. Mfume. The gentleman 
yields back.
    I now recognize myself.
    Many entrepreneurs, especially those from traditionally 
undeserved communities, have struggled to access affordable 
capital on reasonable terms. The most recent example of this 
comes from the Paycheck Protection Program (PPP), where just 12 
percent of Black and Latino business owners who apply for PPP 
loans reported receiving the amount they asked for. To fill 
this gap, a nationwide network of nonprofit mission lenders has 
stepped up to help these businesses who have been left behind 
by traditional lenders. These lenders include SBA certified 
development companies, microlenders, and CDFIs, all of whom are 
empowered to further strengthen their communities using this 
program. So far, the CA program has been incredibly successful 
in meeting its goal of channeling critically needed capital to 
underserved markets. According to SBA, this program reaches 
significantly more women and minorities than the traditional 
7(a) loan program. I have been critical of the 7(a) program 
because the portfolio basically shows that they are making the 
bigger loans, but loans less than $150,000 are the loans that 
are applied for by minority businesses and female business 
owners. There is this gap that exists under the 7(a). The 504 
is filling that gap and it is clear that in the near decade 
since its inception, the CA program has matured into a program 
that deserves statutory recognition and status. That is why I 
am proud to support today's bill to codify the CA program under 
the Small Business Act.
    I want to thank Ms. Chu and Mr. Spano for their leadership 
on this issue. I encourage all of my colleagues to vote yes.
    If there is no further discussion, the Committee will move 
to consideration of H.R. 7903.
    The clerk will report the title of the bill.
    The CLERK. H.R. 7903, to establish the Community Advantage 
Loan Program.
    Chairwoman VELAZQUEZ. Without objection----
    Mr. SPANO. Madam Chair?
    Chairwoman VELAZQUEZ. H.R. 79----
    Mr. SPANO. Madam Chair, I have not amended it.
    Chairwoman VELAZQUEZ. Yes. I will go through that.
    Without objection, H.R. 7903 is considered as read and open 
for amendment at any point.
    Are there any members who wish to offer an amendment?
    Mr. SPANO. Madam Chair, I have an amendment at the desk and 
apologize for jumping the gun.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment to H.R. 7903----
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    The gentleman is recognized for 5 minutes.
    Mr. SPANO. Thank you, Madam Chairwoman.
    Florida is home to more than 2.5 million small businesses 
and 3.5 million small business employees. In my district alone 
there are 12,000 small businesses and over 100,000 small 
business employees. For years, I, too, ran my own small 
business. I know firsthand the challenges that small business 
owners face and the grit and determination necessary to 
overcome them.
    One of the unfortunate challenges that many Florida 
businesses combat are the unforeseen impacts of hurricanes, and 
other weather-related disasters. Today, the Gulf Coast region 
is actually suffering the impact of Hurricane Sally as it moves 
ashore, and our prayers are certainly with them today. Natural 
disasters leave destruction in their wake, including the dreams 
of small business owners. That is why I am offering the 
amendment to bring a bit of certainty to small businesses that 
find themselves in the middle of uncertain circumstances 
recovering from a disaster. My amendment will include 
designated disaster areas as an underserved area as it relates 
to the Community Advantage Loan Program. This classification 
would stand throughout the disaster designation and for a 
period of 2 years afterward supporting small businesses 
throughout the recovery process.
    Additionally, the amendment contains a provision that would 
help Congress better understand the role of a small business's 
credit score within the Community Advantage Loan Program. In 
March of this year, the SBA's Office of Inspector General 
released a report outlining a number of issues within the 
program, including the role of a small business's credit score. 
My amendment, which requires the SBA to report on the 
performance of loans based on credit score ranges provides a 
clear metric for Congress to use in evaluation of the program.
    I appreciate the opportunity to offer these two provisions 
in the amendment that would strengthen and improve the 
Community Advantage Loan Program, and I yield back.
    Chairwoman VELAZQUEZ. Are there any other members who wish 
to be recognized for a statement on the amendment?
    Mr. CHABOT. Madam Chair?
    Chairwoman VELAZQUEZ. Ranking Member Mr. Chabot.
    Mr. CHABOT. Thank you. Move to strike the last word.
    I want to thank the gentleman from Florida, Mr. Spano, for 
offering this amendment that will strengthen the underlying 
bill. The amendment contains two important provisions.
    First, it makes sure that small businesses that are 
impacted by a natural disaster have a place within this program 
as they recover and rebuild.
    Second, it follows through on the SBA Inspector General 
Report by examining the credit scores of small businesses 
operating within the program. These changes will enhance the 
Community Advantage Loan Program and provide Congress with a 
clear view of the program's performance. I know Representative 
Spano has worked diligently on this program, including meeting 
with me to specifically discuss next steps. I would like to 
thank him for his hard work which will benefit people all over 
the country but especially in areas which are subject to 
natural disasters as parts of Florida are.
    I urge my colleagues to support this amendment, and I yield 
back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized for a 
statement on the amendment?
    Let me recognize myself briefly.
    I really appreciate Mr. Spano for offering this important 
amendment which will strengthen this program, reaching into 
communities impacted by natural disasters. With the rise in 
number and strength of natural disasters all across the 
country, it is important that this Committee improves SBA 
capital access offerings. I support the amendment, and I 
encourage all my colleagues to support it as well.
    The question is now on Amendment 1 offered by the gentleman 
from Florida, Mr. Spano.
    All those in favor say aye.
    Those opposed say no.
    In the opinion of the Chair the ayes have it and the 
amendment is agreed to.
    Are there any other members who wish to be recognized for 
the purposes of offering an amendment?
    Mr. CROW. Madam Chair, I have an amendment.
    Chairwoman VELAZQUEZ. The gentleman, Mr. Crow, has an 
amendment at the desk.
    The clerk will report the amendment.
    The CLERK. Amendment to H.R. 7903 offered by Mr. Crow.
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    I recognize the gentleman from Colorado, Mr. Crow, for 5 
minutes.
    Mr. CROW. Madam Chair, thank you for the opportunity to 
speak on H.R. 7903.
    Before COVID-19, 83 percent of all entrepreneurs did not 
have access to bank loans or venture capital, including SBA 
loans. Almost 65 percent of entrepreneurs relied on personal 
and family savings for startup capital. Additionally, although 
the number of women and minority-owned businesses is growing, 
they are less likely to start their own business due to lack of 
access to capital, entrepreneurial training, and networks, the 
basics of starting a successful enterprise. Entrepreneurs, 
particularly those in traditionally underserved communities, 
need upfront support to take the risk of starting a business.
    The ongoing pandemic has made these disparities even 
larger. The economic hardship brought on by the pandemic 
continues to exacerbate previously distressed economies, so 
creating opportunities for business growth in a post-COVID-19 
economy will be critical to revitalize the impacted areas. That 
is why the underlying bill is so important. It provides an 
avenue for mission-based lenders who tend to have more 
relationships and trust in underserved areas to reach more 
businesses that are not traditionally eligible for 7(a) loans.
    H.R. 7903 offered by my friend and colleague, 
Representative Chu of California, includes a stipulation that 
lenders operating under the Community Advantage Program must 
ensure that at minimum 60 percent of their loans go to small 
businesses in traditionally undeserved markets. These are 
defined as ``low- to moderate-income community, HUBZone, 
enterprise community, opportunity zone, or rural areas.''
    My amendment would increase the 60 percent stipulation to 
75 percent, which would ensure that lenders under the Community 
Advantage Loan Program focus their outreach more closely on 
underserved small businesses.
    Small businesses in underserved communities are hurting, 
and I believe that this bill with my amendment will resonate 
with mission-based lenders and make their objective all the 
more clear.
    I urge my colleagues to support my amendment, and I thank 
the Chairwoman for the opportunity to speak on its behalf. I 
yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized on 
Mr. Crow's amendment?
    Mr. CHABOT. Madam Chair?
    Chairwoman VELAZQUEZ. Ranking Member Chabot.
    Mr. CHABOT. Thank you, Madam Chair.
    I want to thank Representative Crow for this amendment and 
his efforts to improve the Community Advantage Loan Program. 
This amendment focuses this program even more on underserved 
small businesses. That is a worthy effort. I support it. I 
support this amendment and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
Thank you so much, Mr. Chabot.
    Again, I will ask all the members to support this important 
amendment. It is going to make a large difference for those 
minority businesses in underserved communities that are 
struggling right now, and I am happy to support it.
    The question is now on Amendment 2 offered by the gentleman 
from Colorado, Mr. Crow.
    All those in favor say aye.
    All those opposed say no.
    I am sorry; all those that support the amendment say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Are there any other members who wish to be recognized for 
the purpose of offering an amendment?
    Seeing none, the question is now on H.R. 7903 as amended.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair the ayes have it and H.R. 7903 
as amended is agreed to.
    The question now occurs on reporting H.R. 7903 as amended 
to the House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair the ayes have it.
    H.R. 7903 as amended is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation, make other necessary technical corrections and 
conforming changes.
    Without objection members have 2 business days to file 
additional supplemental, dissenting, and minority views.
    H.R. 8211
    Our second bill today is H.R. 8211, the ``504 Modernization 
and Small Manufacturer Enhancement Act of 2020,'' introduced by 
Ms. Craig and cosponsored by Ranking Member Chabot. This bill 
will help manufacturing firms access the affordable long-term 
capital they need to sustain and expand operations and create 
jobs.
    I will now recognize the gentlewoman from Minnesota, Ms. 
Craig, for an opening statement on H.R. 8211.
    Ms. CRAIG. Thank you so much, Madam Chairwoman, for 
yielding.
    I am proud to lead H.R. 8211, the ``504 Modernization and 
Small Manufacturer Enhancement Act of 2020,'' and I would like 
to thank Ranking Member Chabot, the original cosponsor, for his 
work on the bill.
    The 504 Loan Program backs long-term loans up to $5.5 
million to support investment in major fixed assets such as 
land, buildings, heavy equipment, and machinery. The program is 
delivered by local, certified development companies (CDCs), 
which are private, nonprofit corporations established to 
promote economic development within their communities. The 
program promotes economic development, job creation and 
retention, and expansion of small businesses throughout a 
three-part partnership.
    In December of 2019, the Subcommittee on Investigations, 
Oversight, and Regulations heard from CDC leaders about their 
experiences with the program and improvements needed. Some of 
the issues mentioned were the lengthy and complex loan closing 
process, which has caused third-party lenders to walk away from 
potential deals and the occupancy rules governing the program 
hindering the financing of projects for multi-story buildings.
    H.R. 8211 would make various improvements to the 504 
program, making it more accessible to small businesses and 
ultimately drive economic development and growth. More 
specifically, the bill would increase the maximum loan amount 
to $6.5 million, require SBA district offices to partner with 
SBA resource partners to provide entrepreneurial development 
assistance, decrease project costs for small manufacturers, and 
increase the job creation retention requirements streamlining 
numerous administrative processes and would create an express 
loan program for loans less than $500,000.
    In a time of economic process and unemployment, I believe 
we need to continue to invest in our small businesses, 
specifically small manufacturers, to promote economic 
development and the creation and retention of jobs.
    Small businesses are the heart of this economy, and with 
these improvements, more small businesses will be able to grow 
and ultimately contribute to the economic landscape of not only 
their communities but of this country.
    I urge my colleagues to support H.R. 8211, and Madam 
Chairwoman, I yield back.
    Chairwoman VELAZQUEZ. The gentlewoman yields back.
    Now I recognize the cosponsor of the bill, Mr. Chabot for 
an opening statement.
    Mr. CHABOT. Thank you, Madam Chair.
    Many of the SBA's government guarantee loan programs have a 
strong track record of producing results. Included near the top 
of this list is the 504 CDC Loan Program. Year in and year out, 
the program helps to transform small businesses and their 
neighborhoods where they operate. This legislation, which I 
have cosponsored along with my democratic colleague, Ms. 
Craig--and I want to thank her for her leadership and hard work 
on this--will further enhance and modernize the program in 
order to assist and serve small businesses across the Nation. 
Specifically, the bill expands the public policy goals that 
will qualify a small business with a 504 Loan Program. The 
legislation also puts a focus on small manufacturers, as Ms. 
Craig indicated, by increasing their loan amount and increasing 
assistance available to them. Additionally, H.R. 8211 
streamlines the 504 Loan Program, the closing process, an 
creates an express program for loans below a half million 
dollars. These changes will enhance and improve the programs 
for many small businesses.
    I want to thank again Representative Craig for working with 
me on these provisions. I fully support this legislation and 
urge my colleagues to do so as well.
    I yield back.
    Chairwoman VELAZQUEZ. Mr. Chabot yields back.
    Are there any other members who wish to be recognized for a 
statement on H.R. 8211?
    Seeing none, I would like to recognize myself. I just want 
to take this opportunity to thank Ms. Craig and Mr. Chabot for 
their leadership on this important effort to enhance the 
ability of small manufacturers to access long-term growth 
capital through this bill.
    By streamlining the 504 loan closing process, the bill 
makes program compliance easier for CDCs, borrowers, and 
especially the third-party lenders who are essential to the 504 
loan structure. We know that closing delays have caused loans 
to flow through and businesses to lose out on affordable 
financing. To that end, Ms. Craig has put forth a strong 
proposal to address these issues.
    I want to thank my colleagues on this Committee for their 
continued support of SBA's 504 Loan Program, and I encourage 
all my colleagues to support the bill.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 8211.
    The clerk will report the title of the bill.
    The CLERK. H.R. 8211, the 504 Modernization----
    Chairwoman VELAZQUEZ. Without objection, H.R. 8211 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Ms. CHU. Madam Chair?
    Chairwoman VELAZQUEZ. Who seeks recognition?
    The lady from California, Ms. Chu, is recognized.
    Ms. CHU. Yes. Thank you, Chairwoman.
    I urge my colleagues to support my amendment to H.R. 8211, 
the ``504 Modernization Act.''
    Chairwoman VELAZQUEZ. I am sorry, Ms. Chu, can you state 
for what purpose are you asking recognition?
    Ms. CHU. Yes. I am submitting an amendment to H.R. 8211.
    Chairwoman VELAZQUEZ. The clerk will report the amendment.
    The CLERK. Amendment to H.R. 8211 offered by Ms. Chu of 
California.
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    The gentlewoman is recognized for 5 minutes.
    Ms. CHU. Thank you, Chairwoman.
    I urge my colleagues to support my amendment to H.R. 8211, 
the ``504 Modernization and Small Manufacturer Enhancement Act 
of 2020.''
    This amendment will make 504 financing available to more 
small businesses by offering an alternate job retention goal 
and will permanently authorize and expand the 504 refinancing 
program. This builds upon my previous legislation, the CREED 
Act, which in 2015 revived the refinancing program under 504, 
allowing more small businesses to lower costs under existing 
real estate and fixed asset tax. In December 2019, I chaired a 
hearing on the 504 program in the Subcommittee on 
Investigations, Oversight, and Regulations. I commend my 
colleagues for introducing this bill to address many of the 
concerns that small business owners raised during that hearing.
    I look forward to supporting this underlying bill and urge 
support for my amendment.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Are there any other members who wish to be recognized for a 
statement on the amendment?
    Mr. Chabot?
    Mr. CHABOT. Thank you, Madam Chair. I will be brief.
    I want to thank Representative Chu for working to make 
adjustments and improvements in this program. The program has 
made a real difference in communities and the changes that we 
are entertaining today, including Ms. Chu's amendment, will 
further add to the program's mission.
    I support the amendment, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized on 
this amendment?
    Okay. Seeing none, I recognize myself briefly.
    I thank the gentlelady from California for offering this 
amendment, and I appreciate her commitment to affordable loan 
refinancing.
    In a world where small business loans are growing more and 
more predatory, Congress should be finding ways to enhance the 
ability of small businesses to refinance debt on reasonable 
terms through the 504 program. Ms. Chu's amendment is a step in 
that direction, and I am happy to support her amendment.
    The question is now on Amendment 1 offered by the 
gentlelady from California, Ms. Chu.
    All those in favor say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Are there any other members who wish to be recognized for 
the purposes of offering an amendment?
    I believe the gentleman from Ohio is seeking recognition.
    Mr. CHABOT. Thank you. Yes, thank you.
    I want to briefly thank the Chairwoman for her efforts with 
this markup, this bill, and also this amendment. Once again----
    Chairwoman VELAZQUEZ. You are seeking recognition. You have 
an amendment.
    The clerk will report the amendment.
    The CLERK. Amendment to H.R. 8211 offered by Mr. Chabot----
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    The Ranking Member is recognized for 5 minutes.
    Mr. CHABOT. Thank you, Madam Chair. I was thanking you for 
your amendment and working on something else here. We 
appreciate the cooperation.
    This amendment is straightforward. It increases the 
flexibility of small businesses to operate within the 504 CDC 
Loan Program.
    If a small business cannot meet the job retention or job 
creation requirements within the 504 program, they are still 
eligible for the program if they meet a public policy goal. 
This amendment expands the list of public policy goals to also 
include expanding a small business that has 10 employees or 
fewer. These small businesses are often in need of the most 
support, both when it comes to resources and financial 
assistance.
    I introduced a bill this past summer that focuses on small 
businesses with 10 employees or less in the context of COVID-
19. This amendment is similar and will assist the smallest of 
small businesses that hope to utilize the 504 CDC Loan Program. 
These small businesses are truly the ``mom and pop'' shops down 
on main street. They support millions of jobs and transform 
neighborhoods. Now is the time to ensure that they have as much 
assistance as possible.
    I urge my colleagues to support the amendment and yield 
back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized on 
the amendment?
    Seeing none, I will recognize myself in support of the 
gentleman's amendment.
    I really appreciate the Ranking Member's commitment to 
small businesses. Especially at this moment through this 
pandemic, COVID-19, we have learned how those smaller of the 
small businesses have been left behind when it comes to access 
to PPP and even EIDL, the Economic Injury Disaster Loan, and 
this is why this amendment is so important.
    Mr. Chabot's amendment is a common-sense proposal that will 
improve the bill under consideration and strengthen the 504 
program's ability to reach America's microbusinesses.
    I encourage all my colleagues to vote yes.
    The question is now on Amendment 2 offered by the Ranking 
Member, Mr. Chabot.
    All those in favor say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    I would like to recognize myself for the purpose of 
offering an amendment.
    I have an amendment at the desk, and the clerk, please 
report the amendment.
    The CLERK. Amendment to H.R. 8211 offered by Chair 
Velazquez.
    Chairwoman VELAZQUEZ. Without objection, the amendment is 
considered as read.
    I recognize myself for 5 minutes.
    This amendment seeks to expand the pool of buildings that 
may be purchased by small business owners with a 504 loan. 
Current occupancy requirements for financing projects to 
purchase an existing building requires business owners to 
occupy 51 percent of the building and allows them to lease out 
up to 49 percent. This has created challenges for CDCs in 
trying to qualify a two-story building for 504 financing. 
Industry stakeholders have advocated that a change to 50-50 
will greatly simplify the process for purchasing two-story 
buildings. Although a change to 50-50 would ease the process 
for purchasing two-story buildings with a 504 loan, multi-story 
buildings would still be ineligible for 504 financing.
    In my district in Brooklyn, the majority of buildings are 
not two stories. They tend to be four and five-story walkups, 
typically with a small business occupying the first floor. 
Under current rules, that small business owner will be required 
to occupy multiple stories of the buildings if they thought to 
purchase it with a 504 loan. For many small firms that is 
simply unobtainable, making the 504 program obsolete for them.
    Earlier in the Congress, our Committee held a hearing on 
the 504 program, and we heard from a CDC in the Boston area who 
said that in the 30 years of being in business, they have only 
done 53 loans in the city of Boston. That is because so few 
buildings there and in densely populated cities across the 
country cannot meet SBA's occupancy requirements. This is a 
clear gap in the coverage of the 504 program, and this 
amendment helps fill it.
    The bottom line here is that we should be making it easier, 
not harder, for small businesses to access affordably priced 
capital on reasonable terms. That is the entire point of the 
SBA loan programs.
    I believe this amendment accomplishes exactly that for 
small business owners seeking to expand by purchasing the 
building they currently occupy regardless of whether they are 
in an urban or rural area.
    I urge members to support my amendment.
    At this point, are there any other members who wish to be 
recognized for a statement on the amendment?
    Mr. CHABOT. Madam Chair?
    Chairwoman VELAZQUEZ. I recognize the Ranking Member.
    Mr. CHABOT. Thank you, Madam Chair. I will be brief.
    I want to thank the Chairwoman for offering this amendment 
which improves the bill. This and the other changes that we are 
making will assist numerous small businesses, both in her 
district, my district, and districts all over the country to 
have a better chance of surviving, operating well, thriving, 
and creating more jobs.
    Thank you for the amendment. I intend to support it. I 
would urge my colleagues to support it and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    The question is now on Amendment 3 offered by myself.
    All those in favor say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Are there any other members who wish to be recognized for 
the purpose of offering an amendment?
    Seeing none, the question is now on H.R. 8211 as amended.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 8211 
as amended is agreed to.
    The question now occurs on reporting H.R. 8211 as amended 
to the House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 8211, as amended, is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation, make other necessary technical corrections and 
conforming changes.
    Without objection, members have 2 business days to file 
additional supplemental, dissenting, and minority views.
    H.R. 8199
    The next bill under consideration today is H.R. 8199, the 
``504 Credit Risk Management Improvement Act'' introduced by 
Mr. Bishop and cosponsored by Ms. Craig. The bill clarifies the 
oversight rule of SBA's Office of Credit Risk Management with 
respect to the CDCs who deliver the 504 Loan Program.
    I would now like to recognize Mr. Bishop, the sponsor of 
the bill, for an opening statement.
    Mr. BISHOP. Thank you, Madam Chairwoman, and Ranking Member 
Chabot for holding this critical markup. Thank you also for the 
opportunity to lead the ``504 Credit Risk Management 
Improvement Act of 2020'' in cooperation with Representative 
Craig and to address it in this hearing.
    As our nation grapples with COVID-19, it is important for 
Congress and this Committee to consider policy proposals that 
bolster the tools available to small businesses. With 
approximately $5 billion on lending in fiscal year 2019, the 
SBA's 504 CDC Loan Program is a very important economic 
development program in operation and a crucial tool for small 
business.
    The program with its job creation and job retention 
requirements has been transformative for neighborhoods and 
communities from North Carolina to Ohio to Texas. With a focus 
on long-term and fixed-rate financing, it is often a lending 
tool that is suited for growing and expanding small businesses 
that do not fit traditional and conventional funding models.
    In the 9th Congressional District of North Carolina, the 
district I represent, we have over 13,000 small businesses. 
This represents over 100,000 small business workers. These 
small businesses and their employees play an outsized role in 
our local and state economy. When these small businesses are 
growing, expanding, and creating jobs, our entire economy 
flourishes.
    That is why it is instrumental for this Committee to 
continue its focus on access to capital. I want to thank 
Representative Craig for working in a bipartisan manner with me 
to strengthen the 504 CDC Loan Program.
    The ``504 Credit Risk Management Improvement Act of 2020'' 
contains numerous provisions that will ensure the program 
remains available to small businesses that truly need the SBA's 
assistance. The legislation puts a focus on the SBA's oversight 
capabilities when it comes to the 504 CDC Loan Program. By 
outlining the responsibilities of the Office of Credit Risk 
Management and detailing the file review and enforcement 
authorities at the SBA, H.R. 8199 will further protect American 
taxpayer dollars.
    Beyond oversight, the legislation also requires the SBA to 
outline clear rules for CDCs and small businesses to follow 
when it comes to environmental obligations. Too often we hear 
of roadblocks that prohibit small businesses from expanding and 
creating jobs. The nation's small businesses, startups, and 
entrepreneurs are nimble and quick. When they know the rules of 
the road, they will adapt and deliver for customers.
    Unfortunately, ambiguous rules get in the way of progress. 
This legislation will help remove one of those barriers and 
provide clear guidance. Because of the fee structure of the 504 
CDC loan program, this program has operated on zero cost to the 
American taxpayer. Provisions in my bill will help continue 
this trend moving forward.
    Small businesses need our help, and I am confident this 
commonsense proposal will help thousands of small business 
owners and their employees.
    I want to again thank Representative Craig for working on 
this legislation and thank the Committee for considering it. I 
urge my colleagues to vote yes on this bill.
    Thank you, Madam Chairman. I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Now I recognize the gentlewoman from Minnesota, Ms. Craig, 
the cosponsor of the bill, for an opening statement.
    Ms. CRAIG. Thank you so much, Madam Chairwoman, for 
yielding.
    I first want to say thank you to Representative Bishop for 
leading this bill and his work on it. I am proud to be the lead 
cosponsor for the ``504 Credit Risk Management Improvement Act 
of 2020.''
    This bipartisan legislation would make necessary updates to 
clarify the Office of Credit Risk Management's role in 
administering the 504 Loan Program and direct the SBA to issue 
rules for compliance with the National Environmental Policy Act 
of 1969. This will would provide clarity asked for by CDC 
leaders and guarantee that the 504 program can continue to 
provide assistance while conserving small business's working 
capital.
    As I have said before, small businesses are the heart of 
our economy. We must continue to improve our programs to best 
serve these businesses to ensure economic development and 
investment in rural economies.
    Thank you so much, again, Representative Bishop and Madam 
Chairwoman. I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    Are there any other members who wish to be recognized for a 
statement on H.R. 8199?
    Mr. Chabot?
    Mr. CHABOT. Thank you, Madam Chair.
    As a way to strengthen the popular 504 CDC Loan Program, 
Representatives Bishop and Craig have worked in a bipartisan 
manner to craft H.R. 8199. This legislation bolsters oversight 
and requires clear and concise rules for CDCs and small 
businesses. With any government guarantee loan program, 
oversight is paramount. H.R. 8199 outlines the rules and duties 
of the Office of Credit Risk Management as it oversees the 504 
Loan Program at the SBA.
    Additionally, this legislation requires the SBA to clearly 
outline how certain loans must be treated under the National 
Environmental Policy Act. Small businesses and certified 
development companies require comprehensive information in 
order to make daily business decisions.
    I would like to thank Representative Bishop and 
Representative Craig again for working in a bipartisan manner 
to put the nation's small businesses first when it comes to the 
504 Loan Program.
    I fully support the legislation and urge my colleagues to 
support it. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized?
    If not, I will speak on this bill.
    It is an important bill, and I want to thank both Mr. 
Bishop and Ms. Craig for your leadership.
    To optimize oversight of the 504 program and all the 
capital access programs at SBA, SBA established the Office of 
Credit Risk Management (OCRM) within the Office of Capital 
Access. OCRM conducts reviews of lenders to ensure that they 
are complying with program requirements. In 2018, Congress 
passed bipartisan legislation to codify the office and gave it 
the tools needed to conduct proper oversight and hold 
noncompliant lenders accountable. It was Congress's intent that 
by boosting OCRM and enhancing its enforcement powers, the 
office will minimize the likelihood that the capital access 
programs, including the 504 program will face a positive 
subsidy.
    Therefore, I am pleased Mr. Bishop has introduced this 
important piece of legislation that clarifies OCRM's oversight 
role and enhances its enforcement powers by shifting loan 
closing file review responsibilities to OCRM.
    I urge my colleagues to support this legislation.
    If there is no further discussion, the Committee will move 
to consideration of H.R. 8199.
    The clerk will report the title of the bill.
    The CLERK. H.R. 8199, the 504 Credit Risk----
    Chairwoman VELAZQUEZ. Without objection, H.R. 8199 is 
considered as read and open for amendment at any point.
    Are there any other members who wish to be recognized for 
the purposes of offering an amendment?
    Seeing none, the question is now on H.R. 8199.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 8199 is agreed to.
    The question now occurs on reporting H.R. 8199 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 8199 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes.
    Without objection, members have 2 business days to file 
additional supplemental, dissenting, and minority views.
    H.R. 8229
    The final bill up for consideration today is H.R. 8229, the 
``Parity for HUBZone Appeals Act of 2020,'' introduced by Mrs. 
Radewagen and cosponsored by Ms. Houlahan, which ensures the 
HUBZone program has the same appeal processes for protest 
determinations of the service-disabled, veteran-owned, and the 
women-owned small business programs.
    I will now recognize the gentlelady from American Samoa, 
Ms. Radewagen, the author of the bill, for an opening statement 
on H.R. 8229.
    Ms. RADEWAGEN. Thank you, Madam Chairwoman.
    I would like to thank my colleague, Ms. Houlahan, for 
collaborating with me on this important legislation.
    The SBA's various small business contracting programs 
support different types of entrepreneurs from women and 
service-disabled veterans to minorities and the economically 
disadvantaged.
    By providing these businesses with special federal 
contracting, whether a business holds a specific status is 
critical to determine whether that company is eligible to 
compete for these special contract opportunities. Not only does 
the business have a vested interest in obtaining and 
maintaining its status, but the federal Government also has an 
interest in making sure these special contracts are not awarded 
to fraudulent firms. If a company is suspected to be ineligible 
for a status it claims to hold, an interested party can protest 
the firm's status.
    For historically underutilized business zones, or HUBZone 
small businesses, the initial protest decision is made by the 
HUBZone program director, and if the small business disagrees 
with the decision, the small business may appeal the protest 
decision to the associate administrator of the Office of 
Government Contracting and Business Development (AAGCBD).
    This differs significantly from the appeals process 
utilized by the SBA's other federal contracting programs. 
Currently, most of the SBA's federal contracting programs 
authorize the SBA's Office of Hearings and Appeals (OHA) to 
hear the appeal. Unlike the AAGCBD who directly oversees all 
the SBA's federal contracting program offices, including the 
HUBZone program, OHA is an independent office of the SBA. 
Leaving the appeal decision to the AAGCBD raises questions of 
conflict of interest, whereas housing that process at OHA will 
ensure the decision remains separate and independent from any 
influence.
    Additionally, requiring the AAGCBD to hear these appeals 
places the responsibility on the office to have a thorough 
understanding of the nuances of SBA's HUBZone eligibility and 
size requirements, procurement law, and have the time and 
resources to assess the facts of the appellants' case in a 
thorough and impartial manner.
    The primary role of the AAGCBD is to oversee all of the 
SBA's federal contracting programs. This duty takes precedence 
over adjudicating HUBZone appeals. In contrast, OHA 
administrative judges are primarily tasked with similar 
appeals, and thus, are well versed at making these decisions 
objectively and impartially. Thus, passage of the bill means 
that small businesses will have a greater chance of having a 
fair and knowledgeable assessment.
    Finally, the AAGCBD's appeals decisions are currently named 
in a vacuum. There is no visibility into reasons why a decision 
was reached. In contrast, all of OHA's decisions are published 
online and easily searchable. These opinions are critical for 
small businesses to obtain a greater understanding of the rules 
surrounding the eligibility. Therefore, shifting the 
responsibility to hear HUBZone appeals to OHA will provide the 
public with much needed guidance and transparency.
    In sum, H.R. 8229 will bring greater parity, fairness, and 
transparency between SBA's HUBZone program and its other 
federal programs. I urge my colleagues to support this common-
sense legislation, and I yield back.
    Chairwoman VELAZQUEZ. The gentlelady yields back.
    I appreciate her work on this issue. Thank you so much for 
your commitment on behalf of small businesses.
    Are there any other members who wish to be recognized for a 
statement on H.R. 8229?
    I now want to recognize the Ranking Member.
    Mr. CHABOT. Thank you, Madam Chairwoman.
    I would like to thank the gentlelady from American Samoa, 
Ms. Radewagen, and the gentlelady from Pennsylvania, Ms. 
Houlahan, for their leadership on this legislation. Ms. 
Radewagen is joining us all the way from American Samoa where I 
believe it is something like 4 o'clock in the morning. It just 
goes to show how she and other members of this Committee are 
willing to work very hard and at very unusual hours of the day 
and night to help our nation's small businesses.
    As we heard from our colleagues, the current appeals 
process for the HUBZone program raises many red flags, 
including questions of conflict of interest, lack of 
transparency and responsibility, and on and on. The AAGCBD 
plays a key role within the leadership structure of the SBA, 
and we need to ensure that this official is equipped to 
successfully supervise all of the SBA's various federal 
contracting programs.
    Relieving this official of the duty of hearing HUBZone 
appeals will help to do that. Furthermore, the SBA's Office of 
Hearings and Appeals is a fully functioning, independent 
organization unbeholden to any of the SBA's federal contracting 
offices, and OHA administrative judges are trained to hear 
exactly these types of matters. By moving HUBZone appeals from 
the AAGCBD's purview to OHA through the passage of this bill, 
HUBZone small businesses will be able to receive impartial, 
fair, and knowledgeable treatment of their case. H.R. 8229 
makes a necessary and long overdue correction in the way 
HUBZone appeals are approached.
    I urge my colleagues to support this commonsense 
legislation, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back.
    Are there any other members who wish to be recognized on 
this legislation?
    Okay. I would like to recognize myself briefly.
    SBA's Office of Hearings and Appeals provides independent 
quasi-judicial reviews of certain SBA program decisions. While 
OHA hears appeals for protest determinations concerning the 
status of a small business as a service-disabled, veteran-owned 
small business or a woman-owned small business, unfortunately, 
it does not do the same for the HUBZone program. By requiring 
SBA to issue regulations granting OHA jurisdiction over these 
appeals, H.R. 8229 advances our efforts in this Committee 
towards uniformity among SBA's contracting programs. More 
importantly, it capitalizes on OHA's expertise and promotes 
efficiency. Finally, because OHA opinions are published, this 
bill will encourage transparency and consistency in judgments.
    I commend Ms. Radewagen and Ms. Houlahan for working 
together on this legislation, and I urge colleagues to support 
the bill.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 8229.
    The clerk will report the title of the bill.
    The CLERK. H.R. 8229----
    Chairwoman VELAZQUEZ. Without objection, H.R. 8229 is 
considered as read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is now on H.R. 8229.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it and H.R. 8229 
is agreed to.
    The question now occurs on reporting H.R. 8229 to the 
House.
    All those in favor say aye.
    All those opposed say no.
    In the opinion of the Chair, the ayes have it.
    H.R. 8229 is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation, make other necessary technical corrections and 
conforming changes.
    Without objection, members have 2 business days to file 
additional supplemental, dissenting, and minority views.
    I thank all the members for their participation today.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]
                           
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
